<html>
<title> - ISRAEL'S RIGHT TO DEFEND ITSELF: IMPLICATIONS FOR REGIONAL SECURITY AND U.S. INTERESTS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                    ISRAEL'S RIGHT TO DEFEND ITSELF:
         IMPLICATIONS FOR REGIONAL SECURITY AND U.S. INTERESTS

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                           NOVEMBER 29, 2012

                               __________

                           Serial No. 112-190

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/




                  U.S. GOVERNMENT PRINTING OFFICE
76-979                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="197e6976597a6c6a6d717c7569377a767437">[email&#160;protected]</a>  

                                 ______

                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         BRAD SHERMAN, California
EDWARD R. ROYCE, California          ELIOT L. ENGEL, New York
STEVE CHABOT, Ohio                   GREGORY W. MEEKS, New York
RON PAUL, Texas                      RUSS CARNAHAN, Missouri
MIKE PENCE, Indiana                  ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
CONNIE MACK, Florida                 THEODORE E. DEUTCH, Florida
JEFF FORTENBERRY, Nebraska           BEN CHANDLER, Kentucky
MICHAEL T. McCAUL, Texas             BRIAN HIGGINS, New York
TED POE, Texas                       ALLYSON SCHWARTZ, Pennsylvania
GUS M. BILIRAKIS, Florida            CHRISTOPHER S. MURPHY, Connecticut
JEAN SCHMIDT, Ohio                   FREDERICA WILSON, Florida
BILL JOHNSON, Ohio                   KAREN BASS, California
DAVID RIVERA, Florida                WILLIAM KEATING, Massachusetts
MIKE KELLY, Pennsylvania             DAVID CICILLINE, Rhode Island
TIM GRIFFIN, Arkansas
TOM MARINO, Pennsylvania
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Elliott Abrams, senior fellow for Middle Eastern 
  studies, Council on Foreign Relations..........................    10
Ms. Danielle Pletka, vice president, Foreign and Defense Policy 
  Studies, American Enterprise Institute.........................    16
Robert Satloff, Ph.D., executive director, The Washington 
  Institute for Near East Policy.................................    23

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Elliott Abrams: Prepared statement.................    12
Ms. Danielle Pletka: Prepared statement..........................    18
Robert Satloff, Ph.D.: Prepared statement........................    25

                                APPENDIX

Hearing notice...................................................    56
Hearing minutes..................................................    57
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey: Prepared statement...............    59
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    60


ISRAEL'S RIGHT TO DEFEND ITSELF: IMPLICATIONS FOR REGIONAL SECURITY AND 
                             U.S. INTERESTS

                              ----------                              


                      THURSDAY, NOVEMBER 29, 2012

                  House of Representatives,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 11 o'clock a.m., 
in room 2172 Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the committee) presiding.
    Chairman Ros-Lehtinen. The committee will come to order. 
I'm sorry to Mr. Berman and his side of the aisle, I know that 
the Democrats are caucusing as we speak. We tried to find a 
convenient time but everybody's caucusing all day, a lot of 
caucusing.
    After recognizing myself and my friend, the ranking member, 
for 7 minutes each for our opening statements, I will recognize 
for 3 minutes, the chairman and the ranking member of the 
subcommittee on the Middle East and South Asia for their 
opening remarks. I will then recognize other members seeking 
recognition, for 1 minute. We will then hear from our 
witnesses, and without objection, the witness' prepared 
statements will be made part of the record and members may have 
5 days to insert statements and questions for the record 
subject to the length limitation in the rules.
    The Chair now recognizes herself for 7 minutes.
    Two weeks ago, the Middle East again erupted, and Israel 
was forced to defend herself against the persistent and ongoing 
barrage of rocket attacks by Hamas and other Palestinian 
extremists. Israel's successful military operation, Pillar of 
Defense, eliminated Hamas' top leaders and disabled several 
rocket launch sites depleting Hamas' operational capabilities. 
This is not just about specific actions by Hamas in Gaza, but 
about a Palestinian Authority that does nothing to reign in 
Hamas and other Palestinian extremist groups, and allows 
intolerance and incitement to violence against the Jewish State 
to fester.
    There have been public reports indicating that the 
Palestinian Authority has continued to pay the salaries of both 
Palestinian extremists in Israeli prisons, and pledged to pay 
for Hamas' salaries if they were to enter into a power-sharing 
agreement with the PA. And today, as we know, Palestinian 
leader Abbas plans to exacerbate the problem by presenting his 
bid for a non-state membership at the United Nations instead of 
initiating direct talks with Israel in order to bring long 
lasting peace to the region.
    What will the day after the vote look like? There must be 
consequences for Ramallah's rejectionism and continued 
irresponsibility.
    The constant sound of sirens as rockets from Palestinian 
extremists head toward Israeli towns and cities is a sobering 
reminder of the imminent threats facing the Jewish State. 
Israel is surrounded by rogue regimes and terrorist 
organizations that wish to wipe her off the map. Fortunately, 
the United States and Israel have collaborated in developing 
the Iron Dome anti-missile system which saved so many lives 
during the recent attacks. I would be interested in hearing 
from our witnesses, their thoughts on if and how this 
successful model can be replicated with other critical regional 
allies such as Jordan for future cooperative activities.
    We face serious challenges region-wide, from Iran's pursuit 
of nuclear weapons capabilities, to the ongoing violence in 
Syria, to transitions region-wide. The central questions I hope 
our witnesses will address in their testimony, what now? Where 
do we go from here?
    Hamas has a lot of weapons left in its arsenal and intends 
to re-arm, with Iran providing weapons to be smuggled through 
the Sinai. The Egyptian Government has yet to crack down on 
arms smuggling through the Sinai or crackdown on the use of 
Sinai as a sanctuary for violent Palestinian extremist groups 
to launch rockets at Israel. Yet, the administration seemed to 
go out of its way to praise the Morsi government for making the 
ceasefire agreement happen. According to news reports, 
administration officials indicated off the record that 
President Obama was investing heavily in Morsi and views him as 
someone with whom the U.S. could do business. Of course then 
Morsi immediately engaged in a massive domestic power grab, 
claiming virtually unlimited powers.
    What steps should the Congress take to hold the Morsi 
government accountable for its actions? What further conditions 
should be placed on U.S. political, economic and military 
support to Egypt? For example, 1 month after our Embassy in 
Cairo was attacked, without any adequate protection from 
Egyptian authorities, the Obama administration requested a 
transfer of $450 million in cash assistance to Egypt. This was 
met by strong Congressional opposition, but what more can we 
do?
    Earlier this year, the Obama administration decided to send 
economic aid to the Palestinians over Congressional objections. 
This included the use of taxpayer funds for such dubious 
projects as cash for work in Gaza, scholarship for Palestinian 
students, office refurbishments, and improvements to the PA 
agencies and ministries.
    In the last 3 years alone, the United States has provided 
over $2 billion in U.S. assistance to the Palestinians. Yet 
this did not serve as an inducement for the Palestinians to act 
responsibly, to effectively fight extremism, to pursue 
sustained unconditional direct negotiations with the Israelis, 
or to abandon their unilateral statehood scheme at the U.N. At 
a time when our own economic situation is in dire straits, 
should the U.S. be helping the Palestinians rebuild their 
economy and providing them with millions in hard-earned U.S. 
taxpayer dollars while Palestinian extremists embrace violence 
and undermine the peace process?
    Finally, we cannot forget the existential threat that a 
nuclear Iran poses to Israel, U.S. allies and national security 
interests in the region. I am deeply concerned that the 
administration's foolish embrace of yet another round of 
negotiations will only embolden the Iranian regime. Rather than 
embarking on this dangerous and foolhardy course, we must 
accelerate and expand our sanctions and work with likeminded 
allies to strengthen their bilateral sanctions regimes, to 
compel the Iranians to verifiably and permanently abandon their 
dangerous policies.
    As events unfold, we must closely analyze our foreign 
policy objectives in the region and scrutinize every taxpayer 
dollar being spent in this fragile economic environment to 
ensure that we are able to regain lost leverage and effectively 
pursue our national security objectives.
    And with that I am pleased to yield to my friend, the 
ranking member, Mr. Berman, for his opening statement.
    Mr. Berman. Well, thank you very much, Madam Chairman, and 
also thank you for calling this important hearing at this 
critical time. I would like to offer a few observations 
regarding the recent fighting and regarding the Palestinians' 
profoundly regrettable effort to achieve statehood recognition 
through a U.N. vote rather than through direct negotiations 
with its neighbor Israel.
    First of all, regarding the fighting let's be clear. 
Contrary to media shorthand, the hostilities began long before 
Israel killed Ahmad Jabari, the leader of Hamas' military wing. 
Hamas and other Gaza extremists fired more than 800 rockets 
into Israel this year prior to Jabari's death. During some of 
these barrages, 1 million people in southern Israel, one-eighth 
of Israel's total population, the equivalent of 40 million 
Americans, were forced into bomb shelters, paralyzing the 
region. No country in the world would sit by and allow itself 
to be attacked in this way, especially when targeted by 
terrorists who oppose its very existence.
    Second, amidst the recent visits of Arab and Turkish 
officials to Gaza, let's remember why we have to stand 
steadfastly against any legitimization of the de facto Gaza 
authority. Hamas is an Iranian-backed terrorist group that is 
sworn to Israel's destruction. They are not remotely a peace 
partner. There should be no loosening of the Quartet's 
conditions for dealing with Hamas, nor should we loosen ours.
    In that regard, I can't help but note once again Hamas' 
astonishing cruelty and disregard for human life, not only 
Jewish life but Palestinian life. They show their contempt for 
Palestinian civilians by burying their rockets next to 
hospitals and mosques and in crowded neighborhoods, creating a 
cynically crafted quandary for Israel, which is caught between 
the sacred mission of protecting its own citizens and the 
terrible prospect that some innocents may die as it does so. 
And we know that Hamas is never more pleased than when it can 
accuse Israel of a civilian massacre.
    Israel's own constantly improving efforts to limit loss of 
innocent life stands in stark contrast to Hamas' cruelty. As we 
know, Israel has saved countless lives by warning Palestinian 
civilians to evacuate before striking targets. Every loss of 
innocent human life is a tragedy, but Israel deserves credit 
for keeping civilian casualties remarkably low while attacking 
nearly 1,500 Hamas targets in densely populated Gaza.
    Third, the Obama administration deserves commendation for 
its support of Israel, steadfast support from the outset and 
throughout this crisis. President Obama made clear that he was 
in his words, ``fully supportive of Israel's right to defend 
itself from missiles landing on people's homes and 
workplaces.'' And he emphasized that his administration would, 
and I quote again, ``continue to support Israel's right to 
defend itself.'' Administration spokesman also repeatedly made 
clear that Israel would ``make their own decisions about the 
tactics they use,'' and they pledged additional support for 
Iron Dome and stepped-up efforts to stop Hamas' smuggling. And 
once it became clear that Israel wanted a cease-fire the 
administration helped seal that deal as well.
    Fourth, Prime Minister Netanyahu deserves credit for his 
restraint. By choosing not to go forward with a ground 
operation he saved countless Israeli and Palestinian lives.
    And I think this body can be justifiably proud of its own 
role in saving innocent lives through our funding of the Iron 
Dome defense system. Israeli lives were saved and the tenor of 
hostilities dramatically altered by Iron Dome's amazing ability 
to destroy nearly 90 percent of rockets before they landed in 
populated areas. Palestinian lives were saved because Iron Dome 
prevented the kind of atrocities that would have left Israel no 
choice but to respond more harshly.
    And fifth, as we look in the future, nothing will be more 
critical to calming Israel's Gaza border than ending the 
smuggling of arms from Iran and elsewhere into Gaza. In that 
regard, Egypt bears a particularly heavy responsibility.
    Lastly, a word about what's happening at the U.N. today and 
its context. President Abbas, the leader of the PLO and of the 
Palestinian Authority, is seeking U.N. General Assembly support 
for recognition of Palestine as a so-called ``non-member 
state.'' Whatever the vote on that proposition, the whole world 
knows that Palestine isn't yet a state, that it has virtually 
none of the attributes of statehood enumerated in international 
law.
    We will watch closely to see what the PLO does in the 
aftermath of this vote. If they continue to internationalize 
their claims, for example, through cases at the International 
Criminal Court or the International Court of Justice, or if 
Abbas continues to refuse to return unconditionally to the 
negotiating table, I have no doubt that the impact on U.S.-
Palestinian relations will be devastating.
    Thank you, Madam Chairman, for holding this hearing, and I 
look forward to hearing from our distinguished panel.
    Chairman Ros-Lehtinen. Thank you, Mr. Berman. I am pleased 
to yield 3 minutes to Mr. Chabot, the chairman of the 
Subcommittee on Middle East and South Asia.
    Mr. Chabot. Thank you, Madam Chair. I know we want to get 
to our distinguished panel of witnesses this morning so I will 
try to be brief.
    In the last week we have heard a lot of references to truce 
between Hamas and the state of Israel. Unfortunately using that 
term is, I am afraid, wishful thinking. Hamas is a terrorist 
organization. Terrorism is what it does. And any lull in that 
terrorist activity will only be a time-out in which it 
rebuilds, re-arms and reorganizes. Its goal is and always has 
been the destruction of Israel and the extermination of the 
Jewish people.
    And I think that anybody who thinks that the truce 
negotiated last week is anything more than an intermission in 
that battle ought to step back and take a look at Hamas' 
history in Gaza. It is fraught with violence directed at both 
Israel and at its Palestinian counterparts associated with 
Fatah.
    In the 7 years since Israel withdrew from Gaza, it has 
launched thousands of missiles including hundreds in the months 
before Israel finally took military action to protect itself. 
And now as a result of the so-called truce agreed upon last 
week we will hopefully have a period of relative calm in the 
region. But the length of that calm will depend on the actions 
of the key players in the region, especially Egypt which has 
been credited by the Obama administration with being the key 
player for negotiating the cease-fire.
    Will the Morsi administration follow through with its role 
as peacemaker, or will it appease its radical Muslim 
Brotherhood base and look the other way while arms continue to 
be smuggled into Gaza to the Muslim Brotherhood's Hamas 
offshoot for the sole purpose of attacking Israel? I am afraid 
it is more likely to be the latter.
    We have got an excellent panel of witnesses, as I said 
before, here this morning, and I think we all look forward to 
hearing them address these important issues.
    Thank you, Madam Chair, for holding this hearing.
    Chairman Ros-Lehtinen. Thank you so much, Mr. Chabot.
    I will now recognize members to speak for 1 minute. Mr. 
Sherman, the ranking member on the Subcommittee on Terrorism, 
Nonproliferation, and Trade.
    Mr. Sherman. Fifteen hundred rockets and mortars entered 
Israel aimed at apartment buildings, schools and hospitals. The 
facts are uncontested that they were aimed almost exclusively 
at civilian target, 1,500 separate war crimes. Egypt has 
basically a 10-mile border with Gaz. It allows those tunnels to 
operate and take the rockets in. If we are going to praise 
Egypt for helping to end this barrage of missiles against 
Israel, we must also condemn Egypt for allowing those rockets 
to be smuggled through their territory.
    Palestinians asked Israel to withdraw from Gaza, Israel 
did, now the leaders of Gaza demand the ``liberation of Tel 
Aviv.'' This effort to delegitimize Israel and to delegitimize 
Israel's right to defend itself needs to be turned back. This 
hearing is one small part of that. And finally, I should 
commend the President for his steadfast support for Israel's 
right to defend itself.
    Chairman Ros-Lehtinen. Thank you, Mr. Sherman.
    I am honored to recognize Mr. Smith, the chairman on the 
Subcommittee on Africa, Global Health, and Human Rights.
    Mr. Smith. Thank you, Madam Chair. Madam Chair, Hamas was 
not holding its own in this conflict despite its obnoxious use 
of terror missiles aimed at civilians reminiscent of the Nazi's 
V1 and V2 rocket attacks on Londoners during World War II. 
Israel's Iron Dome anti-missile system is reported to have been 
85 percent successful in engaging those missiles headed for 
population areas of up to 70 kilometers from their launch 
sites.
    A ground war launched by Israel could have further degraded 
the ability of Hamas and other Palestinian groups that threaten 
Israel with continuing missile attacks by enabling further 
Israeli strikes on the Palestinian missile storage facilities. 
So the Hamas concession to temporary peace can in no way be 
construed as a commitment to lasting peace, but rather a 
realization of the danger of defeat. Paradoxically, the truce 
actually offers Hamas an opportunity to restock and reposition 
their missiles.
    Madam Chair, I would ask that my full statement be made a 
part of the record.
    Chairman Ros-Lehtinen. Without objection.
    Mr. Smith. And I am testifying on behalf of Hurricane Sandy 
victims over on the Senate side at 11:30, so I will go and 
hopefully be back.
    Chairman Ros-Lehtinen. Lovely, thank you.
    Mr. Smith. And I thank our distinguished witnesses for 
their work.
    Chairman Ros-Lehtinen. Thank you so much, Mr. Smith.
    Mr. Rohrabacher who is the chairman of the Subcommittee on 
Oversight and Investigations is recognized.
    Mr. Rohrabacher. Thank you, Madam Chairman, and I am 
looking forward to hearing the testimony today. Let me just 
state that it shouldn't escape any of us that the Middle East 
is in turmoil and we need to compare this to what it was like 6 
years ago before this administration. And it seems to me that 
the policies and the approach that brought by this 
administration to the Middle East have left us with turmoil and 
less of a chance for peace, and the launching of more and more 
rockets into Israel by Palestinian irreconcilables as well as 
the Iranian Mullah regime deciding that they can provide more 
and more rockets to the Palestinian irreconcilables. If anybody 
is responsible, who is responsible for all of this? All we know 
is our enemies seem to be of encouraged by the current policy 
of this administration because they are now more aggressive 
than they were 6 years ago.
    We all remember the apology tour. We all remember the lack 
of support for America's friends. We all remember the fact that 
this administration didn't say a word to help the students in 
Iran when they were about to stand up against the Mullah 
regime. We are now facing the consequences not of a proof of 
sincerity which this administration----
    Chairman Ros-Lehtinen. Sorry, Mr. Rohrabacher.
    Mr. Rohrabacher [continuing]. But a projection of weakness 
by the Obama administration.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Rohrabacher. Thank you very much.
    Chairman Ros-Lehtinen. Thank you, sir.
    Mr. Royce is recognized, the chair of the Subcommittee on 
Terrorism, Nonproliferation, and Trade.
    Mr. Royce. Thank you, Madam Chair. I was actually in Haifa 
in 2006 during the rocket attacks during the Hezbollah war and 
actually saw the targeting of civilian population sites there, 
and at one point even the trauma hospital that I visited. And 
so I saw what it was like to see a society paralyzed. It was a 
ghost town there. Out of that, however, came the Iron Dome. And 
in a few short years, from the drawing board to implementation, 
we had a system there that proved its mettle and protected 
Israelis from rocket attack.
    I think that that Iron Dome gave leaders in Israel 
breathing room. It prevented more bloodshed. I think Congress 
should be very proud of the role it played in the Iron Dome. I 
will tell you that I am very skeptical about Egyptian 
commitments that were made here and I am skeptical about them 
being upheld. And with Iran's backing, the Islamic resistance 
movement will re-arm. Iran is getting and generating more and 
more weaponry down there, and that is without a nuclear weapon. 
Imagine how emboldened Iran will be with a bomb. So the stakes 
are very high, Madam Chair, and I appreciate you holding this 
hearing.
    Chairman Ros-Lehtinen. Thank you so much, Mr. Royce.
    Mr. Wilson of South Carolina is recognized.
    Mr. Wilson of South Carolina. Thank you, Madam Chair.
    On Saturday, the Post and Courier of Charleston, South 
Carolina, published a thoughtful editorial in response to the 
Associated Press article that deemed Israel a winner in the 
cease-fire agreement and it stated, ``After all, given its 
brutal, duplicitous track record, Hamas can't be realistically 
trusted to keep its word about anything, especially when 
offering assurances it will stop firing rockets into Israel.''
    Sadly, due to shameless propaganda, Israel is often 
misrepresented when it responds to attacks. We must not forget 
that Hamas fires missiles and rockets first, and Israel has 
every right to defend itself. In fact, it is Hamas who 
intentionally targets civilians with its indiscriminate rocket 
attacks. Hamas also has rockets provided by Iran, a nation that 
is fueled by hatred of Israel, who dwells on reminding the 
world it can provoke war in the Middle East. I am grateful 
America stands by Israel, and I yield the balance of my time.
    Chairman Ros-Lehtinen. Thank you so much.
    Mr. Poe, the vice chair of the Subcommittee on Oversight 
and Investigations, is recognized.
    Mr. Poe. The eyes of the world were on the Gaza Strip for 8 
days as sirens wailed and rockets rained down on our ally, 
Israel. It started when Hamas launched over 8,000 rockets into 
Israel since 2005. These rockets didn't come from nowhere. For 
months, Iran's mullahs shipped long-range rockets into the 
Sudan, shipped them through Egypt before smuggling them through 
tunnels and assembling them in Gaza.
    Israel responded by doing what any other responsible nation 
would do, it defended itself. Now that the cease-fire is in 
place, the United States needs to show that there are 
consequences for attacking a sovereign nation both for Hamas, 
but especially for Iran. We should have stricter enforcement 
sanctions and pass tougher sanctions on Iran. Iran and Hamas 
both should be held accountable for these attacks. Israel has 
the moral right and legal duty to defend itself. There is a 
cease-fire but only until Hamas obtains more Iranian missiles. 
Hamas is the puppet but Iran is the puppeteer, and we should 
recognize that. I yield back.
    Chairman Ros-Lehtinen. It is just the way it is.
    Mr. Kelly, Subcommittee on Asia and the Pacific, vice 
chair, is recognized.
    Mr. Kelly. Thank you, Madam Chair. I had the opportunity 
actually to sit in front of Prime Minister Netanyahu, and when 
we talked about Israel's role in that region of the world he 
said, understand this, that in that region we are you and you 
are us. I don't think anything could be more clear than that. 
And as we go into this hearing today, I think it is really 
important that we understand, you can talk the talk but you 
better be able to walk the walk. And we need to send a message 
not just to Israel's current enemies, but as the world goes on 
and continues to spin out of control, especially that region, 
that we stand shoulder-to-shoulder with Israel and we will 
never back down on any commitment to make sure that we protect 
our closest ally and friend in that region of the world.
    So Madam Chair, thank you for having this, and the 
witnesses, thank you for being here. We have some other 
questions when it comes to the U.N. Arms Trade Treaty and 
Palestine's end run now to get some legitimacy. I think those 
are things that we have to meet head on and be very clear in 
our language about it and not put some kind of a spin on it 
that lets people interpret it as something different than what 
it is, and that is our total commitment to Israel and its 
survival.
    Chairman Ros-Lehtinen. Thank you so much, Mr. Kelly.
    Congressman Turner of New York is recognized.
    Mr. Turner. Thank you, Madam Chair. I am interested in what 
our distinguished panel can tell us about what may happen in 
the U.N. vote. What mischief may be caused if the Palestinians 
prevail, and what the United States is doing about it and what 
we should be doing about it, and a long-term basis, do you see 
any role of Egypt here in absorbing some responsibility in Gaza 
from a protectorate to whatever? But your views would be 
appreciated. Thank you, I yield back, Madam Chair.
    Chairman Ros-Lehtinen. Thank you, Mr. Turner.
    Mr. Burton, the chairman of the Subcommittee on Europe and 
Eurasia, is recognized.
    Mr. Burton. It is great to see my old buddy, Elliott 
Abrams, again. We have known each other for 30 years, but you 
never age. You still look young like--let me, I am not going to 
say much right now. I will listen to the witnesses.
    But ever since the Arab Spring began, the entire northern 
tier of Africa and the Gulf States have been in a state of 
flux, and I think that is one of the contributing factors. Iran 
is trying to destabilize that entire region, and Israel is the 
one that is bearing the brunt of it. And all I can say is that 
we need to give Israel all the support they need to make sure 
that they survive, because Iran is determined with its allies 
to destroy it.
    Chairman Ros-Lehtinen. Thank you, sir.
    Mr. Duncan of South Carolina is recognized.
    Mr. Duncan. Thank you, Madam Chairman. In August 2011, I 
was in Israel and we heard a presentation by a lady from 
southern Israel. She lived on a collective farm, a kibbutz, and 
she came and she talked with us about how they teach their 
children about Code Red, the threat that they have every day. 
Coloring books about the color red, board games like Chutes and 
Ladders where if you land on Code Red you go to the bomb 
shelter. She presented to us a box of both rocket and bomb 
fragments, her collection that she had picked up on the yard of 
her home.
    I don't have a bomb or rocket fragment collection, and I 
would be willing to bet not anyone in this room does. This is 
an existential threat that Israel lives under every day. They 
should have the right to defend themselves. And with that 
Madame Chairman, I yield back.
    Chairman Ros-Lehtinen. Thank you. Thank you so much.
    Mr. Bilirakis, my colleague from Florida.
    Mr. Bilirakis. Thank you, Madam Chair. I appreciate it very 
much, and thank you for holding this hearing.
    For years, Israelis have lived under the constant threat of 
attack from Gaza using rockets, many of which were supplied 
from Iran and smuggled into the country. A few weeks ago we saw 
Israel exercise its right to defend itself. The cease-fire 
which began November 21st appears to be holding for now, but we 
know Iran will continue in its efforts to arm Hamas.
    Iran has also been active in Syria. Tens of thousands of 
Syrians have been killed and many more have become refugees in 
neighboring Lebanon, Jordan and Turkey. The future of Syria is 
uncertain but the conflict brings increased security concerns 
for Israel and the region at large. I look forward to asking 
questions. I look forward to your testimony. Thank you, I 
appreciate it.
    Chairman Ros-Lehtinen. Thank you so much. Thank you.
    And we are honored to have as our guest, Mr. Green of 
Texas. I understand you don't have an opening statement, or you 
wanted to ask a question. I wanted to make sure that you had a 
minute if you wanted to say something. Mr. Green?
    Mr. Green. Thank you, Madam Chair, and I thank you 
especially for allowing me the opportunity to be heard. I think 
it goes without saying that any nation that is under assault 
has the right to defend itself. I am eager to hear what our 
panelists have to say so as to get a better understanding of 
some of the nuances that I may not have captured from viewing 
this from afar. I thank you again.
    Chairman Ros-Lehtinen. Thank you, sir. We are honored to 
have you.
    And now it is my pleasure to introduce our excellent set of 
panelists starting with Elliott Abrams who as Mr. Burton points 
out is a good friend of our committee for many years. He is a 
senior fellow for Middle Eastern Studies at the Council on 
Foreign Relations. After serving on the staffs of Senator 
``Scoop'' Jackson and Moynihan, he was an assistant Secretary 
of State in the Reagan administration and received the 
Secretary of State's Distinguished Service Award from Secretary 
George P. Shultz.
    Mr. Abrams joined the Bush administration in January 2001, 
as a special assistant to the President and senior director of 
the NSC for Democracy, Human Rights, and International 
Organizations. From December 2002 to February 2005, he served 
as the special assistant to the President and senior director 
of the National Security Council for Near East and North 
African Affairs. He served as deputy assistant to the President 
and deputy national security advisor for Global Democracy 
Strategy from February 2005 to January 2009, and in that 
capacity supervised both the Near East and the North African 
Affairs and the Democracy, Human Rights, and International 
Organizations directorates of the National Security Council. 
Wow.
    And then we will hear from Danielle Pletka who is the vice 
president for Foreign and Defense Policy Studies at AEI. Before 
joining this organization she served 10 years as a senior 
professional staff member for the Near East and South Asia on 
the U.S. Senate Committee on Foreign Relations. Ms. Pletka 
writes regularly on the Middle East and South Asia, U.S. 
national security, terrorism and weapons proliferation, and for 
a range of American newspapers and magazines. Ms. Pletka's 
writings and interviews have appeared in the New York Times, 
the Washington Post, the Wall Street Journal, CNN, CBS News, 
the Los Angeles Times and many others. She has testified before 
Congress on the Iranian threat and other terrorist activities 
in the Middle East, and she has also written extensively on 
deterring a nuclear Iran and Iran's influence in the Middle 
East. Welcome to you as well.
    And next we will hear from Robert Satloff who has served as 
the executive director of the Washington Institute since '93. 
Dr. Satloff is an expert on Arab and Islamic politics as well 
as U.S.-Middle East policy. He has written and spoken widely on 
the Arab-Israeli peace process, the Islamist challenge to the 
growth of democracy to the region, and the need for bold and 
innovative public diplomacy to Arabs and Muslims. The author or 
editor of nine books or monographs, Dr. Satloff's views on the 
Middle East issues frequently appear in major newspapers and he 
regularly comments on major news programs, talk shows and 
National Public Radio. Dr. Satloff is the creator and host of a 
weekly news and interview program on Alhurra, the U.S. 
Government supported Arabic satellite television channel that 
is broadcast in the Middle East and Europe.
    A distinguished panel, indeed, and thank you, Dr. Satloff, 
for giving me your latest edition from the Washington 
Institute. Thank you so much, and we will begin with Mr. 
Abrams. Thank you.

 STATEMENT OF THE HONORABLE ELLIOTT ABRAMS, SENIOR FELLOW FOR 
      MIDDLE EASTERN STUDIES, COUNCIL ON FOREIGN RELATIONS

    Mr. Abrams. Thank you very much. I should start by saying 
it has been a great pleasure over the last few years to come 
and testify before the committee and see this tag team of the 
chairman and ranking member, and all things change but I have 
been honored and very pleased to be able to testify before you.
    I want to just say a word first about the Gaza war at the 
local level and then the broader, regional level. At the local 
level it is obviously the successor to what happened in 
December 2008 and January 2009, Cast Lead. Then as now, Hamas 
and other terrorist organizations shot hundreds of mortars and 
rockets into Israel, and then as now, it was only a matter of 
time before Israel reacted. Throughout 2008 Israeli officials 
were telling the Bush White House, if this continues we are 
going to have to go into Gaza.
    Why did Hamas do this now, I think, is an interesting 
question, now, because it obviously forced Israel to react. We 
don't really know the answer but I can give you three theories. 
The first is that with this U.N. initiative, the Palestinian 
Authority in the West Bank was kind of taking center stage and 
Hamas wanted to grab it back for the armed struggle. The second 
is that if Hamas isn't fighting, isn't launching rockets, some 
of the young men under its control start leaving and going to 
places like Islamic Jihad. They didn't sign up to police the 
borders, they signed up to attack Israel, and if Hamas isn't 
doing it others are. They are going to lose some popularity in 
the places they need it.
    Thirdly, and I think as Mr. Chabot has said this, why does 
Hamas commit acts of terrorism? It commits acts of terrorism 
because it is a terrorist group. They are terrorists. That is 
what they do. They didn't conquer Gaza so that they could 
improve the quality of the schools and have more efficient 
government services. They conquered Gaza to use as a base to 
attack Israel. Now whether they benefit from this war, I think, 
depends in no small part on Egypt, as many of you have said.
    We tried, when Israel left Gaza in 2005, to work out a 
border regime that would prevent Iranian arms from going in. We 
failed. Israel and Egypt tried again in January 2009, and we in 
the United States tried. And we got all sorts of promises, but 
we failed. Egypt can do this, and it is in Egypt's interest as 
well as ours and Israel's that it do so. So I urge you, as you 
consider this question of aid to Egypt, to think hard about 
this issue.
    It is also clear as several of you have said that those 
missiles, particularly the Fajr missiles that hit or were aimed 
at Tel Aviv and Jerusalem, weren't made in workshops in Gaza. 
They came from Iran. And it is a reminder that this kind of 
subversion, aggression, military action is coming from the Iran 
that doesn't have nuclear weapons as has been said here. One 
can only assume that with nuclear weapons they will be far more 
militant, far more aggressive throughout the entire region.
    I wanted to just mention two other things before I end. One 
of them on Egypt, one on Jordan which, Madam Chairman, you 
mentioned. On Egypt, we made a mistake, I believe, for most of 
the last 30 years under Hosni Mubarak of not caring very much 
about what went on inside as long as the foreign policy was 
responsible. I urge that we don't make that mistake again. That 
we do not take the position that, well, President Morsi did 
okay during the Gaza war so who cares whether there is 
democracy in Egypt or not? This would be, I think, a tremendous 
mistake for the United States.
    Finally, on Jordan. We have seen in the last few months 
demonstrations of increasing size. Why now? Why 2012 and not 
previous years? One of the key reasons, I think, is economic. 
Jordan is suffering under the burden of Syrian refugees, 
approximately 200,000 of them, and increased energy prices, 
because that gas pipeline that used to go from Egypt to Israel 
and Jordan has been closed, so they are now buying on the spot 
market and they are paying a lot more. If we seek stability in 
Jordan we should help it address these issues.
    We are generous as an aid donor, you vote this aid. The 
Gulf Arabs have not been so generous, not this year. They have 
given next to nothing. And I think this should be a key goal of 
the United States policy in that region, to ask them to act and 
act fast to help Jordan remain stable and survive this very 
difficult year.
    The time is up so I will stop with that, and thank you 
again for inviting me. I look forward to your questions.
    [The prepared statement of Mr. Abrams follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Chairman Ros-Lehtinen. Thank you. Thank you very much, and 
I especially like those three reasons why you think it happened 
now.
    Ms. Pletka, thank you so much.

 STATEMENT OF MS. DANIELLE PLETKA, VICE PRESIDENT, FOREIGN AND 
     DEFENSE POLICY STUDIES, AMERICAN ENTERPRISE INSTITUTE

    Ms. Pletka. Madam Chairman, thank you very much for having 
me. I just want to take a moment if I might, as Elliott did, 
and I think Rob will as well, to say thank you to both you and 
to Mr. Berman. It has really been a pleasure working with you 
for these years, and I look forward to doing so in the future 
as well, but thank you for your really fine stewardship of this 
committee. You deserve a great deal of commendation, and I know 
you have it from our community here in Washington.
    Back to the reason that we are here today. I don't think it 
is any secret to anyone who follows the Middle East that there 
has been an enormous transformation in that part of the world, 
not just with the Arab Spring but really a broader 
transformation. We have seen Iran come to the brink of having a 
nuclear weapon. We have seen Hezbollah take over Lebanon, 
something that we don't talk about enough, in addition to all 
of the post-Arab Spring changes that we have seen throughout 
the Middle East and North Africa.
    Part of the problem is that we still seem very flummoxed 
about what to do about that as a matter of national policy. We 
sit by and we wring our hands, we bemoan the troubles that we 
are seeing, but we really don't try to do enough about it. And 
I don't include the committee in this condemnation, but 
generally speaking I think that the attitude is one that the 
events are going too fast for us to be able to influence. And I 
would argue that that is not correct.
    I think that trouble that we are facing is really 
underscored with this war with Hamas in Gaza, because all of a 
sudden you did see a realignment of the region in a way that is 
most unfortunate. Many of us had hoped that with democracy the 
region would turn inward and look more at the economic problems 
that are challenging these countries, look more at the 
challenges of developing democracy, and instead they have 
really done what is the habit of the last 50 years, which is to 
turn to the question of the Palestinians as the excuse and the 
topic of conversation that compels them.
    So what are the options that are before us? When we think 
about each of these countries, in many of these situations we 
are looking at countries that are major recipients of U.S. 
assistance. In the case of one of Hamas' big supporters, 
Turkey, we are looking at a NATO ally. So what exactly are we 
supposed to do both about the PA and the Fatah which governs 
the West Bank, Hamas which is in Gaza, the partnership that 
they are again talking about, obviously the bid for non-member 
statehood inside the General Assembly today?
    I think that we have a number of options. The problem is 
that what we are doing now isn't, in my opinion, right. It is 
not really a form of engagement. We have two forms of 
abdication of responsibility instead that are being advocated. 
The first is from those who suggest that what we really ought 
to do is wash our hands of the region. Let us cut off all aid 
to all of these countries right now. Let us just stop it, rid 
ourselves of this problem. That in and of itself is a form of 
abdication of responsibility because this part of the world 
matters to us. Even if we turn our back they are going to come 
and follow us, and we do care about our partners in the region. 
We care a great deal about Israel, the only real democracy.
    The other form of abdication is this sort of passive 
willingness to let the region drift. That is what we really 
see, I believe, from the White House. We just wring our hands, 
and the President engages when there is a crisis. He calls 
Morsi a few times. But at the end of the day they don't really 
do much. Once they are disengaged they are truly disengaged.
    And you see that by the way if you look at the pattern of 
assistance to Egypt. I was gobsmacked, if I can say so, that 
the ask for foreign assistance to Egypt in both military 
assistance and economic support was exactly the same this year 
as it was last year, as if nothing had happened. Waivers are 
waved through. Conditions that are put on by the Congress are 
ignored. And yet it all seems to continue along. The same is 
true for the Palestinians.
    The right approach, I think, if we recognize that we have a 
stake in the future is to walk a very fine line. It is, first 
of all, to recognize that we can't just continue to behave as 
if it is status quo ante. We can't treat Morsi as if he is the 
new Mubarak, which I think is the approach of the 
administration. Gee, you did a great job mediating that whole 
thing between the Israelis and Hamas. Let me give you some more 
money. And I am not really worried about your power grab. I am 
not really worried about that smuggling. That is the message we 
hear. We could do a lot more to ensure that aid is going for 
the things that we want it to go for and that if it doesn't go 
for that that there aren't benefits on the other side.
    The same is true in places like Lebanon, by the way. We 
have given $1 billion in assistance to the Lebanese armed 
forces and yet we see that Hezbollah is continuing to attack 
Israel from the north, sponsor terrorism. Again, I think that a 
lot more vigilance toward the conditionality and a lot more 
guidance from Congress will be very helpful. The challenge of 
Turkey, I am about to run out of time. But I hope we will have 
an opportunity to talk about it in question and answer, because 
it is very, very important.
    [The prepared statement of Ms. Pletka follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Chairman Ros-Lehtinen. Thank you, and I am sure that it 
will come up. Thank you.
    Dr. Satloff?

  STATEMENT OF ROBERT SATLOFF, PH.D., EXECUTIVE DIRECTOR, THE 
           WASHINGTON INSTITUTE FOR NEAR EAST POLICY

    Mr. Satloff. Madam Chairman, let me join my colleagues in 
thanking you for your leadership of this committee. It has been 
a privilege to provide testimony today and before. May I also 
express my admiration and thanks to the ranking member? Mr. 
Berman, I truly hope our Nation continues to find ways to 
benefit from your wise leadership and from your excellent 
counsel and stewardship of American foreign policy.
    Chairman Ros-Lehtinen. We won't count that time against 
you.
    Mr. Satloff. Thank you, thank you.
    We heard talk about the Gaza conflict. I would like to 
suggest two larger regional trends to put the Gaza conflict 
into context. The Gaza conflict underscored first that Israel 
is at the heart of two megatrends that are defining today's 
Middle East. These two megatrends are, on the one hand, the 
spread of Iran's hegamonic ambitions, and on the other hand, 
the spread of Sunni radical extremism. In most of the region 
these two trends are fighting each other. Syria, Bahrain, for 
example. However, in the Arab-Israeli arena these two trends 
have found a way to join forces as seen in the division of 
labor between, on the one hand, Iran's provision of rockets and 
weapons to Hamas, and on the other hand, the growing Sunni 
provision of political support to Hamas, Egypt, Qatar, Tunisia, 
Turkish. These two trends which fight everywhere else, on 
Israel's border fight together. This is a very dangerous 
situation for Israel's security and for our friendship and 
relationship with Israel.
    Secondly, just in the Arab-Israeli arena itself, Gaza 
represents something bigger than just a conflict between Hamas 
and Israel. It represents what I would call ``the end of the 
40-year peace'' between Arab and Israeli states.
    Now I know it might sound a bit incongruous, but the fact 
is since 1973 there has been no state-to-state conflict in the 
Arab-Israeli arena. This is quite a big difference from the 
first 25 years of Israel's history. That is an enormous change 
and it has provided an opportunity for Israel's growth, 
development and the development of a U.S.-Israel strategic 
relationship.
    However, however, now with Hamas' strong political backing 
from regional states, future historians will look back as this 
as the first episode of interstate conflict and certainly 
interstate competition in the Arab-Israeli arena in a quarter 
century. This isn't to suggest that war will occur tomorrow, 
quite the contrary. It may take some time. But it will only be 
postponed for tactical reasons between an Islamist Egypt and a 
potentially Islamist Syria and a radical Sunni impact in the 
Arab-Israeli arena, and in a strategic sense, I think conflict 
is likely in the long term.
    Now with this disquieting turn of events what can the 
United States do? Let me focus very briefly on five issues. 
First, strengthen U.S.-Israeli cooperation. It is extremely 
important that the conflict in Gaza ended with the United 
States as supportive of Israel as when the conflict began. That 
was a vital message to Iran and a vital message to other Arabs 
such as the Saudis. This needs to be expanded.
    Secondly, deny Hamas a political victory. Hamas lost on the 
battlefield. They could win on the political battlefield 
depending on what happens with the Palestinian Authority, 
depending on how Hamas and the PA may come together. We have a 
vital interest in ensuring that any reconciliation in which 
Hamas becomes part of the PLO does not happen, and that what 
happens out of New York ends up in unconditional negotiations 
between Mahmoud Abbas and Israel. That is urgent.
    Thirdly, incentivize more moderate behavior from Egypt. 
Egypt could go either way. They are moderate on a Monday, 
radical on a Tuesday. Is Morsi an ideologue or a national 
leader? We don't know. Clearly he is committed to the ideology 
of the Muslim Brotherhood. We can't change that ideology, but 
through our conditionality we can help to change his behavior. 
And I commend to your attention a new report issued by my 
Institute yesterday by former Congressman Vin Weber and former 
White House counsel, Gregory Craig, urging constructive 
conditionality, clear in terms of the U.S. relationship with 
Egypt.
    Fourth, Syria. This is the battleground where the forces of 
extremism on both sides are battling it out. We have to be more 
deeply engaged, Madam Chairman. We are not in the game, and the 
game will eventually be defined by those who are in it.
    Last, let me echo my friend, Elliott Abrams', comment about 
Jordan. The Saudis have provided zero aid to Jordan this past 
year. That is why Jordan is on the brink of utter despair and 
perhaps the undermining of the kingdom. This is irresponsible. 
We need to do everything we can to change that situation to 
protect the only Arab country still actually talking to Israel.
    Thank you, Madam Chairman.
    [The prepared statement of Mr. Satloff follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Chairman Ros-Lehtinen. Thank you, excellent point. Thank 
you so much for wonderful testimony. I will begin the 
questioning period, and I would like to ask this to all the 
three of you.
    The Iranian regime has clearly been a key enabler of Hamas, 
of Palestinian Islamic Jihad, all the extremist groups that are 
operating in Gaza. They provide arms, funding, political 
support. By continuing to support Hamas and other extremists, 
what do you believe are the strategic objectives that Iran has 
in the Levant, particularly for Egypt, and do you believe that 
Iran will now introduce more advanced weapons systems into 
Gaza? And lastly, what policies or programs could the U.S. 
pursue to effectively counter Iran's efforts in this area? I 
will start with Mr. Abrams.
    Mr. Abrams. I need about 4 hours to answer those questions 
because they are very tough. Iran is looking for influence in 
the Sunni Arab world, and believes that one of the great ways 
to do it is to appear to be the enemy of Israel. They are 
counting on hatred of Israel among Arab populations to gain 
them popularity, because what they are doing at home in Iran is 
clearly not gaining them popularity. What they are doing in 
Syria is losing them popularity, where they are helping the 
regime slaughter people who happen to be Sunni Arabs. So it is 
partly that--just seeking to gain more for themselves, and also 
of course they want to attack Israel and they want to help 
anybody who is willing to, any group that is willing to attack 
Israel.
    Ultimately, the only way to solve that problem is regime 
change, and that may take 1 year and it may take 21 years, and 
we obviously don't know but I wish we had a more honest debate 
about this, more or less in the way we talked about the Soviet 
Union. We dealt with the Soviet Union but we also made it clear 
that we thought in the long run the answer to the problems it 
created was the end of that regime in Russia.
    Chairman Ros-Lehtinen. Let me just go to the other 
panelists. We only have 3 minutes left. Thank you, Ms. Pletka 
and Dr. Satloff.
    Ms. Pletka. It is actually very interesting, you ask a very 
important question. I think that at the beginning of the Arab 
Spring the Iranians were very worried. This really seemed to be 
a Sunni phenomenon. Democratic revolutions, Sunnis ousting 
their leaders, and feeling empowered. And we all talked a lot 
about the gulf between the Sunni and the Shia and the 
implications for that and the problems that Iran would face as 
a result. In fact, you even saw that in Gaza, fascinatingly, 
when Hamas broke with Syrian President Bashar al-Assad. The 
Iranians were very angry with them and, in fact, ousted them 
from a number of regional meetings and indicated that they were 
going to lessen their support for Hamas, and that they were 
going to throw a lot more of it to Palestinian and Islamic 
Jihad. And you saw, fascinatingly, members of PIJ converting to 
Shia. And last year, on the holiday that the Shia just 
celebrated, Ashura, there was a Hamas-led round-up of 
Palestinian, Gaza-living, Shia converts, and they were all 
arrested. And this was sort of the phenomenon of the region at 
large, right happening right there.
    But what the Iranians have managed to do and with the help, 
frankly, of the Egyptians, the Turks and others, and the 
Qataris as always, is to turn this around again to make it much 
more about Israel than it ever was before, and to try and use 
that populism to save face, as Elliott rightly said, and to 
benefit themselves in the region. Very interesting and very bad 
of us.
    Chairman Ros-Lehtinen. Thank you.
    Dr. Satloff?
    Mr. Satloff. Madam Chairman, let me make two brief points 
on either end of the supply chain. First, about Iran. You are 
absolutely right that what the Iranians want to do, and they 
are doing this for clear reasons. They want to undermine any 
sense of stability on the Eastern Mediterranean as they are 
active elsewhere in the region.
    On a policy level, I think that we tend to focus our policy 
too much by isolating the nuclear issue and not recognizing how 
the nuclear ambitions of Iran are connected to an entire 
Iranian strategy. We tend not to focus on what I would call 
Iran's ``ground game,'' what Iran is doing on the ground, in 
Iraq, in Syria, in the Arab-Israeli arena. We tend to focus the 
nuclear issue in one basket and everything else separately. 
This is a comprehensive challenge that the Iranians are posing 
to us.
    Secondly, Egypt, and here an operational suggestion. The 
Egyptians do not want to invest their military in stopping the 
smuggling or in stopping the flow of weapons over the Gaza 
border. I would support and I urge, and this report I mentioned 
earlier recommends as well, that we begin to do a micro 
conditionality in our military assistance to Egypt, which 
specifically targets a certain amount of money, perhaps $100 
million to start, specifically for spending in Sinai on 
counterterrorism and counter-smuggling. The Egyptians will 
fight this because all they want are tanks and airplanes. But 
it is very important that we begin a conversation with them 
with money on the table to move them to focus on this most 
important of urgent issues.
    Chairman Ros-Lehtinen. Thank you so much. Thank you to all 
three of you.
    Mr. Berman is recognized. Thank you, Howard.
    Mr. Berman. Thank you very much, Madam Chairman. Focus if 
you would for 5 minutes, or as much of that 5 minutes as I 
leave you, on the isolation of Hamas. We saw in this recent 
thing, the Emir of Qatar, the Prime Minister of Egypt, a group 
of 10 Arab foreign ministers, the Turkish Foreign Minister, all 
coming for hosted visits to Gaza. Turkish Prime Minister 
indicates he won't be far behind. And we all remember the Gaza-
Cast Lead-Erdogan reaction back in 2008.
    How should the U.S. relate to these visits? These are 
countries we generally enjoy friendly relations with. Should we 
be indifferent to them? Should we actively discourage them? 
How? These visits undoubtedly erode the legitimacy of the PA 
and Ramallah as the rightful governing body for Palestine, for 
Palestinians in both the West Bank and Gaza. Does it have 
additional significance, operational significance for Hamas, 
leading to a dilution of the now long-standing Quartet's 
requirements that Hamas renounce violence, recognize Israel, 
accept previous Israeli-Palestinian agreements, or are these 
visits not to be made much of, minimal in impact as long as the 
U.S., the EU and like-minded countries continue to regard Hamas 
as a terrorist group and recognize the PA? Is there something 
significant happening here?
    Ms. Pletka. It is a question you have been grappling with 
as a committee for a long time, how to best isolate Hamas. I 
find that if we spend a lot of time talking about these visits 
we aggrandize them more than they deserve.
    I think there are two important things to look at. The 
first is, where is Hamas going? It is no longer in Damascus. 
Where is its leadership going to be based? Is it going to be 
based in Gaza, in which case Gaza is as we now know a terrorist 
state, or is it going to be in Qatar or in Cairo? Because when 
it was in Damascus we designated Syria as a state sponsor of 
terrorism. Are we going to do the same for where they land next 
time? That is part one.
    Part two, for all of these incredibly peripatetic leaders 
who like to go and visit Gaza, what are they doing for the 
Palestinian people, not for Hamas? That is the question I would 
like them to answer publicly. What are you going to be 
rebuilding? What budget payoffs are you going to be doing? What 
streets are you going to pave? What sewer system are you 
helping? Because what they really do is look for publicity.
    Mr. Berman. Well, the Qatari announced $400 million.
    Ms. Pletka. Let us see them deliver it.
    Mr. Berman. Well, yes, good point.
    Mr. Satloff. Mr. Berman, I take a somewhat more jaundiced 
view of the visits to Gaza. I think these are very serious 
challenges not just to the Palestinian Authority, but to the 
idea that there could be a diplomatic resolution of the 
conflict between Israelis and Palestinians. The rise of Hamas' 
legitimacy undermines the very notion that we have spent 
decades trying to advance, which is that the resolution to this 
conflict is done at the negotiating table. Every leader that 
goes to Gaza, although they say they want to support the people 
of Gaza, in fact, undermine the chances for peace.
    Now we can hold Egypt more responsible, which is very 
important, but I think we have to also look to Ramallah. If the 
Palestinian Authority wants to commit suicide we can't stop 
them, but we have a very strong interest in retaining the idea 
that peace is something to be negotiated. And that is the best 
antidote to Hamas' political success.
    Mr. Abrams. I would only add, Mr. Berman, I think if these 
countries are going to start treating Gaza like a separate 
entity, Israel can do so as well. And one of the things that I 
think the Israelis ought to do is, for example, hand Gaza over 
to Egypt when it comes to things like electricity. They are now 
part of the Israeli grid, which is ludicrous. I think the 
integration of Gaza more into the economy of Egypt is one way 
of responding to these visits.
    Mr. Berman. It is a hostile act to Egypt. Thank you very 
much.
    Chairman Ros-Lehtinen. Thank you, Mr. Berman.
    Mr. Rohrabacher, the chairman of Subcommittee on Oversight 
and Investigations, is recognized.
    Mr. Rohrabacher. Well, thank you very much, Madam Chairman, 
and again thank you for your leadership over the years on many 
of these Middle Eastern questions as well as some of the more 
vexing questions that we face internationally. First, let me 
note that I again repeat what I stated in my opening 1-minute, 
fast little statement. It appears to me, and I have been here 
for 24 years, and Elliott and I worked in the Reagan White 
House years together, so that is 31 years altogether, Elliott. 
And Elliott, all had a full head of hair at the time and----
    Mr. Abrams [continuing]. Like Mr. Fortenberry, if you 
remember.
    Mr. Rohrabacher. But let us just note this is, I am looking 
back now and looking at what I have learned over the years, and 
it seems to me that the turmoil that we are now experiencing in 
the Middle East is a result of specific policy and approaches 
made by this administration, specifically a projection of 
weakness when the administration believes it is projecting 
sincerity.
    We could see that in the beginning when the President went 
on an apology tour throughout the Middle East trying to prove 
how sincere he was going to be, and also trying to prove how 
sincere he was to the mullahs, how he refrained from supporting 
the democratic opposition in Iran after a phony election there. 
And of course we have had a lack of support for the other 
democratic elements, not only Iran, but our friends throughout 
the Middle East when they became, got under pressure, we 
weren't there to support them so that we could prove our 
sincerity to the old Middle East as a whole.
    I think this has left the wrong impression among decision 
makers in the Middle East that we are weak. They do not see 
sincerity as strength. And I think that the worst possible 
example of this is the last example, which is the latest 
display of the administration's irrational approach to 
sincerity, was President Obama's insistence for almost a week 
after the crime that the deaths of four American diplomatic 
personnel in Benghazi was a result of movie rage instead of 
radical Islamic terrorism, which are words that he doesn't seem 
to be able to put together, radical Islamic terrorism.
    And what I would like to ask for the panel is, how does the 
President's willingness to bend over backwards and blame movie 
rage, and let us note when he blames movie rage what he is 
really blaming is freedom of press in the United States because 
we permit them to make movies that somebody might be outraged 
over, rather than blaming bloodthirsty, radical Islamic 
terrorists who are active in that region, and does this bending 
over backwards to blame the movie rage rather than the 
terrorists, doesn't this result in more rockets being fired by 
the Palestinian irreconcilables into Israel and more rockets 
being provided to those irreconcilables by the Iranian Mullah 
regime?
    And I will start with Elliott, and what do you think?
    Mr. Abrams. I will try to be very brief. When I talk to 
many Israelis and many Gulf Arabs, they have a very similar 
take on the situation. That is, that they worry a lot about the 
weakness they believe is being projected by the United States.
    I worry a lot about an American conclusion that those guys 
are winning and are the wave of the future. In Egypt today, 
thousands and thousands and thousands of people out in the 
streets protesting the Morsi power grab. When he won he won 51-
48. Forty-eight percent of the people, a little bit more, of 
Egypt voted against him. They did not want a Muslim Brotherhood 
President. So they are willing to struggle against Islamic 
extremism, and their question for us is, are we willing to help 
them?
    Mr. Rohrabacher. Right. Anybody else have a comment on 
that?
    Mr. Satloff. Congressman, to me, the most visible place 
where American leadership is at stake is in Syria right now. 
Syria is the battleground where the Iranians are fighting a 
last-ditch effort to maintain influence and control of the key 
resistance link from Beirut to Tehran, and where other forces--
some radical, some Jihadists--but where other forces are trying 
to defeat them. We have a clear interest in Iran's defeat. I 
believe, while we have shown leadership in some very important 
areas such as U.S.-Israel cooperation, I bemoan the fact that 
we haven't shown leadership on this most important strategic 
battleground in today's Middle East.
    Mr. Rohrabacher. Thank you.
    Ms. Pletka. I couldn't agree with Rob more about Syria. The 
only area that I think we really need to dig down onto is the 
question of our aid to these countries. Are they an entitlement 
for Egypt, for Lebanon, for the Palestinians, or should they 
come with conditions? Should they be altered every year? Should 
they be revisited every year? Should they be serving our 
interests, and should they be predicated on serving those 
interests, shared interests by the way with a lot of the people 
of the region, as Elliott rightly said?
    Mr. Rohrabacher. Thank you very much.
    Chairman Ros-Lehtinen. Thank you so much. Thank you, Dana.
    Mr. Sherman, the ranking member on the Subcommittee on 
Terrorism, Nonproliferation, and Trade.
    Mr. Sherman. Dr. Satloff, you have proposed the idea that 
we earmark some of our military aid to Egypt. There is 
discussion of increasing total aid. You are proposing that this 
come out of the aid we are currently providing, and what do you 
think of the Egyptian and others who argue that we should keep 
the military aid and increase the economic aid to Egypt?
    Mr. Satloff. Congressman, I focus, I mean I am not trying 
to avoid the answer, but my focus is not so much on a 
particular dollar amount but how we use the aid to advance a 
better U.S.-Egyptian relationship, a relationship where our 
interests are not at the moment being adequately addressed by 
the Government of Egypt. Aid, in and of itself, is not a huge 
amount of the Egyptian economy. What is really important about 
our assistance is what it signals to the international 
community, the IMF, international donors, et cetera, because 
the Egyptians are on a fiscal cliff that is far steeper than 
ours. And so we can use this moment and including inside the 
military aid, some of it, to get them to address our interests 
in a way they aren't doing right now.
    Mr. Sherman. And I would point out that while the cease-
fire is preventing rockets from being fired at Israel, and the 
Egyptians deserve some credit for negotiating that, all those 
rockets are in Gaza precisely because Egypt has not patrolled a 
10-mile long border.
    Mr. Abrams, should we be providing, covertly, money to 
those who are waging war or other conflict against the Iranian 
Government, particularly Iranians Kurds, the Baloch, and other 
ethnic minorities?
    Mr. Abrams. I am not fully familiar with what we are doing 
right now, but generally speaking my answer to that would be 
no. I think the battle against that regime is mostly going to 
be political. I think the people of the country already hate 
that regime, and I think we should be doing more to denounce it 
and make it a pariah state. I think we should do much better 
than we are doing in broadcasting and access to internet. I 
worry that by giving aid to some of the minorities you might 
turn other pieces of the population against you or give the 
regime excuses for further repression.
    Mr. Sherman. Should we be funding dissident Farsi-speaking 
groups?
    Mr. Abrams. I think we should be doing that. If we can do 
it effectively so that the regime doesn't find out, I think we 
should very much be doing that more or less in the way we have 
in past years in other countries.
    Mr. Sherman. One of the benefits of being a Member of 
Congress is I get to ask questions that are impossible to 
answer.
    Mr. Abrams. Yes.
    Mr. Sherman. What is the likelihood that Israel will 
attack, arrange nuclear facilities in the next 12 months and 
what are the main factors in that decision? How important are 
the opinions of the American people, Congress and 
administration to that Israeli decision?
    Mr. Abrams. My answer to that would be they are very 
important. But if the Israelis conclude this is A, that it is 
an existential threat, and B, that they can actually have a 
successful military attack, they will do it even if they 
believe they will have a lack of support from Washington.
    Mr. Sherman. Do you think they will do it or not?
    Mr. Abrams. I think that if the negotiations do not succeed 
in producing something----
    Mr. Sherman. Got you.
    Mr. Abrams [continuing]. By the spring, yes, I do.
    Mr. Sherman. And Ms. Pletka, would an Israeli attack 
necessarily be limited to the nuclear facilities, or would 
Israel, might Israel instead, in effect, hold hostage 
everything above the ground in Iran and all of its 
infrastructure, in demanding that U.N. inspectors be able to 
dismantle those nuclear facilities that cannot be bombed?
    Ms. Pletka. It seems it is not only your privilege to ask 
impossible questions but that you actually enjoy it.
    Mr. Sherman. That is the nature of privileges.
    Ms. Pletka. I have absolutely no idea what Israeli military 
planning is for Iran. Everything that we understand about how 
they look at the challenge, and everything that we understand 
from a variety of open sources about how the Iranians have 
configured their defenses and have configured their nuclear 
sites, would indicate that the Israelis are only interested in 
a very limited strike on Iran that would include their nuclear 
sites. But again I am only guessing.
    Mr. Sherman. And finally I would point out that if the 
electric grid of Gaza is plugged into Egypt that diminishes or 
takes away one possible pressure point that Israel could use in 
a non-lethal way. And I yield back.
    Chairman Ros-Lehtinen. Thank you so much, Mr. Sherman.
    Mr. Royce, the chairman of the Subcommittee on Terrorism, 
Nonproliferation, and Trade is recognized.
    Mr. Royce. Yes, thank you, Madam Chair. I was going to ask 
a question of Ms. Pletka, and it has to do with the debate over 
Egypt and the direction. And that one observer made an 
observation this week that Western analysts continue to misread 
Morsi, imagining that his primary political challenge is to 
improve the Egyptian standard of living. Not so. His real 
challenge is to consolidate the power of the Brotherhood. I was 
going to ask you if you think that author is off the mark or 
not.
    Ms. Pletka. It is probably at the center of the debate that 
is going on in Washington right now about the nature of the 
Morsi leadership, the intentions of the Muslim Brotherhood. We 
can endlessly parse the differences. There are great 
generational differences inside the Muslim Brotherhood. It is 
not a monolith, like any political party is not a monolith. And 
so I imagine that there are those within the Muslim Brotherhood 
who seek only to consolidate its power, and there are others 
who actually seek to retain power.
    If Egypt is going to remain a democracy, then the President 
of Egypt whether he is from the Muslim Brotherhood or anything 
else is going to have to respond to the dire economic needs of 
the Egyptian people. The Egyptian economy is in a very bad 
place. And although Rob talked about the amounts being very 
small, I sat down and looked at what they were. One-point-
fifty-five billion dollars in U.S. aid, $1.3 billion for the 
military, $250 million in economic assistance, $1 billion more 
in debt relief from the U.S. taxpayer, and $4.8 billion in 
promised IMF support. We should think of those numbers as 
important to the Egyptians and they give us a lot of leverage.
    Mr. Royce. You would think that. But I will tell you what 
gave me pause and why when I read that piece in the Journal 
last week I was thinking about this. You have a situation where 
we all see that the Egyptian economy needs help, and then you 
have this massive power grab that comes from Morsi as the IMF 
loan is still in the process. It hasn't been finalized. And 
what struck me about the timing of it was as though the power 
grab was more important than the economic resurgence of Egypt.
    Ms. Pletka. Well, wait a minute. Look at it from his 
perspective.
    Mr. Royce. Yes?
    Ms. Pletka. We have conditions on our assistance that 
suggest that in the event of such a power grab, in other words 
that democracy is not proceeding at a pace, no protections for 
minorities, for Christians, for women, et cetera, that our aid 
will not go forward. But it has. Also I didn't hear much of a 
peep from the IMF suggesting that that power grab is going to 
interfere with Egypt receiving that aid. The problem is not 
with Morsi. He is making the correct calculation that he can do 
what he wants. The problem is with those parties that choose to 
continue to provide the assistance in the face of what he does.
    Mr. Royce. Well, you are saying then that in a way their 
actions are contingent upon the State Department that would be 
willing to actually cut off the spigot in the face, let us say, 
of noncompliance with respect to civil society or rights to the 
Coptics or these rule of law issues that we have spelled out, 
and given the fact that this has been ignored by the 
administration, ignored by the State Department, he is actually 
correctly reading our lack of desire to really try to enforce 
the conditionality, and as a consequence simply shrugging and 
saying, well, I will do the power grab in the middle of this 
based upon what I have seen so far.
    So you would argue that if we would apply the conditions 
that we have made in terms of aid we might be able to see 
better compliance with respect to these rule of law issues and 
respect for minority rights in Egypt?
    Ms. Pletka. We can certainly make an effort, and we would 
at least do it with a clear conscience that we hadn't been 
subsidizing bad behavior on the part of the Egyptian 
Government.
    Mr. Royce. There is another issue I want to bring up but I 
am going to ask Mr. Abrams. The Washington Post reports this 
morning that Qatar is bankrolling a new generation of Islamists 
across the Middle East, raising questions about its vision for 
the region and whether some of its policies are in direct 
conflict with U.S. interests. And as you go down the laundry 
list, the most hardcore elements in the Libyan struggle were 
funded there by Qatar. They assisted the Shahab. There is a 
report this morning that shoulder-fired missiles appearing in 
Syria are compliments of their funding. And then of course you 
have got the visit of the Emir to Gaza last month pledging 
hundreds of millions in aid. And so I would just ask you about 
your read on Qatar here.
    Mr. Abrams. We are almost out of time, but I think that 
story was accurate and I think the Qataris are relying on us to 
protect them from Iran, but then in the Sunni Arab world are 
engaging in support of Islamist elements that are really 
against the interests of the United States, and continuing to 
use Aljazeera in ways that harm the interests of the United 
States.
    Mr. Royce. Thank you, Elliott.
    Chairman Ros-Lehtinen. Thank you. Thank you so much, Mr. 
Royce.
    Mr. Cicilline of Rhode Island is recognized.
    Mr. Cicilline. Thank you, Madam Chairman, for conducting 
this hearing, and thank you to our witnesses. I think it is 
critically important of course that the United States maintain 
our unwavering support for the state of Israel, and while no 
one should live under the constant threat of violence, this is 
the reality as you know for the people of the state of Israel 
on a daily basis. And it is difficult to understand how that 
reality will change until Hamas recognizes Israel's right to 
exist and rejects violence.
    So my first question is, what do you think is the 
likelihood of the cease-fire continuing for a sufficient period 
of time to create the space for a real dialogue, and are there 
things that we can do or should be trying to do in the Congress 
to enhance the likelihood that that cease-fire remains intact?
    Mr. Satloff. Well, first, Mr. Cicilline, as a native Rhode 
Islander, I thank you very much for your question. I think it 
is quite unlikely that this cease-fire lasts. The cease-fire is 
an interlude for Hamas to re-arm. The Iranians will try to re-
arm them. It will be up to the Egyptians and others to try to 
stop them. The Egyptians will only do it if we incentivize them 
properly to do it.
    The best thing that we can try to do to try to deprive 
Hamas of a political victory from this is to use our influence 
in Ramallah with the Palestinian Authority to try to get them 
to reengage in direct diplomacy with the Israelis 
unconditionally, which would isolate Hamas. Right now the PA is 
isolated. Hamas is riding high. We have to change that dynamic, 
and that could only be done with a little bit more leadership 
and backbone from the head of the Palestinian Authority.
    Mr. Cicilline. And actually that leads nicely to my second 
question, is what do you think it the impact of the activities 
at the United Nations? How is that to play out, and are there 
things we either should do in response to that in the context 
of what is happening in the region or should not do? And 
obviously others can chime in.
    Mr. Abrams. The Israeli Government seems to have taken the 
position in the last week that what is more critical is what 
the PA does after that vote, and I think we should also focus 
on that. The British Government said recently that they won't 
vote for this resolution at the U.N. today unless they get 
assurances from President Abbas, for example, that he won't try 
to go to the International Criminal Court. I think we should 
base our reaction on what he does, whether he uses that vote, 
in essence, to make trouble and try to embitter relations 
between Israel and the PA.
    Mr. Satloff. I agree with Elliott. On the one hand he could 
choose to compete with Hamas for the radical side of the 
Palestinian world or to underscore that he has a different 
path. If he chooses to compete he will lose, because Hamas has 
better ways to be radical. They can shoot and kill. He can't. 
If he does, he is gone. So we have to encourage him to choose 
the diplomatic path. Right now we are doing this, I think, in a 
very quiet, soft way, and this is where I urge even more 
forceful American diplomacy and leadership to try to compel him 
to engage in diplomacy. It should be in his interest. If it 
isn't, then there is a serious problem in Ramallah.
    Mr. Cicilline. Thank you, I am sure.
    Chairman Ros-Lehtinen. Thank you, Mr. Cicilline.
    Mr. Chabot, the chairman of the Middle East and South Asia 
Subcommittee, is recognized.
    Mr. Chabot. Thank you, Madam Chair, and thank you to all 
the panel members this morning. It seems to me that Hamas and 
its anti-Israel allies have used this latest turmoil in the 
region to advance the much broader delegitimization of Israel 
strategy that has really been in play for some time now. For 
instance, Hamas and its allies focus on the human cost of 
Israeli strikes, and an often sympathetic media is quick to 
cooperate with a photo of an injury or a tragedy or death which 
if they are civilians clearly that is not what is intended.
    But we hear little about unprovoked attacks on civilians in 
Israel. We are told over and over how many Israeli rockets were 
fired into Gaza, but we rarely hear about the thousands of 
rockets launched into Israel for years and hundreds that were 
launched in the month leading up to what, I believe, was a 
measured Israeli response to Hamas terrorism. We see it 
constantly at the U.N. which spends an inordinate amount of 
time considering anti-Israel resolutions. Their 
delegitimization of Israel campaign is sophisticated, well 
organized and ongoing. Our response in the U.S. it seems is 
inadequate, muffled.
    What can the current administration do that it is not doing 
now to promote a counter-campaign and reverse this dangerous 
trend? How should we, how should the administration, how should 
Congress deal with this delegitimization of our strongest ally 
in the region, Israel? Maybe I will start with Elliott and go 
down the line, if I can.
    Mr. Abrams. I think the delegitimization gains strength 
when there is an appearance of a gap between the United States 
and Israel. And I think that has happened in the last 4 years. 
I think it closed a bit during this war because the 
administration gave strong support to Israel throughout the 
war. I think that has got to continue. When we say things 
either, or do things in the White House or at the United 
Nations that give evidence of deep disagreement between the 
U.S. and Israel, it is a huge encouragement for the 
delegitimization campaign. And that, I think, we turned a 
corner here perhaps in this war and I would like to see us 
going in a better direction.
    Mr. Chabot. Thank you.
    Ms. Pletka?
    Ms. Pletka. In adding to the vein of what Elliott just 
said, one of the most interesting things that you hear from 
Gulf leaders is their shock at the gap that had opened up 
between Israel and the United States over recent years. They 
view that as a barometer of American friendship and loyalty. If 
you won't stand by Israel, how can we trust you to stand by us 
against Iran? And the answer is of course that they don't.
    In the direct question of what we can do to fight this 
delegitimization campaign, we can ensure that there are 
consequences. We provide an enormous amount of money to various 
U.N. agencies, not to speak of the U.N. itself. We don't need 
to do that. It is not that important. The American taxpayer 
will thank you if you don't do it. So if we did it to UNESCO, 
you, the Congress did it, there is no reason not to continue 
down that line to others who recognize a Palestinian state. If 
they don't want U.S. money they don't need it.
    Mr. Cicilline. Thank you.
    Dr. Satloff?
    Mr. Satloff. A slightly different suggestion, Congressman. 
If you look closely at the Gaza cease-fire, the actual text, 
there is nothing in this text that suggests that there will be 
any prevention of the importation of rocketry into Gaza. There 
is no international document. There is no international 
resolution which makes it beyond the pale. Even if it will be 
infringed upon, even if it will be violated, I would like to 
see the U.N. Security Council pass a resolution calling on all 
member states to prevent the importation or transfer of 
military weapons and articles into Gaza. At least the world 
will be on record, and I think that will be very important.
    Ms. Pletka. May I say a word? You mean like the resolution 
that we saw stopping weapons from being transferred into 
Lebanon in the wake of the Lebanon war, the U.N. Security 
Council resolution that is violated every single day without 
comment from any party including by the way the United States, 
not to speak of the U.N. Security Council?
    Mr. Chabot. I have got less than half a minute left. Let me 
take over here for that small portion of time I have. I just 
wanted to make one point. I find it particularly commendable, 
Israel informing, because a lot of the rocket making facilities 
and other are in residential areas or near mosques and near 
schools, that they were actually trying to notify civilians, 
yet we still see, the Washington Post just had a picture 
showing probably a tragedy, but there were also stories about, 
perhaps some of these things were film or pictures from Syria 
and other things. But I think Israel really did try to avoid 
civilian casualties here and should be commended for that. 
Yield back.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Chabot.
    Pleased to yield to Mr. Connolly of Virginia.
    Mr. Connolly. Thank you, Madam Chairman, and welcome to our 
panel. Mr. Abrams, good to see you again. Let me ask, maybe 
you, Dr. Satloff, how did Iron Dome work in the recent 
unpleasantness?
    Mr. Satloff. By all accounts the Iron Dome performed quite 
magnificently. I mean it not only stopped an extraordinarily 
high number of rockets, but one of the main elements of Iron 
Dome is that it can, in a blink of an eye, determine whether a 
rocket is headed into an area in which it has to actually send 
an anti-missile to stop. So it can determine just like that 
whether it deserves being shot at, which saves an enormous 
number of Iron Dome rockets. Now there isn't an unlimited 
supply at which the Israelis are beginning to address, but it 
performed, I think, beyond any reasonable expectation.
    Mr. Connolly. And this was a collaborative effort with the 
United States Government, with the Obama administration----
    Mr. Satloff. This was on a----
    Mr. Connolly [continuing]. Trying to provide an extra 
security screen?
    Mr. Satloff. This, I think, is one of the finest examples 
of U.S.-Israel strategic cooperation. It didn't only benefit 
Israeli civilians, it added to Israel's deterrence and it added 
to the sense around the region that the United States is 
willing to spend money to prevent these sorts of things, which 
strengthens America's sense of deterrence against adversaries 
more broadly.
    Mr. Connolly. And in some ways it is in contrast, is it 
not, to the protection and promised attempts at protection 
during the Kuwait war, the Persian Gulf I, when we, the United 
States, attempted to assure Israel and provide some security 
measures. What was the missile program?
    Mr. Satloff. Patriots.
    Mr. Connolly. Patriot missile. But compared to Iron Dome, 
performance was significantly below what you just described, 
would that be fair?
    Mr. Satloff. No. Congressman, the technology is very 
different. We are today at a much more advanced ability to 
address incoming rocketry. I think that the United States did a 
valiant effort in the Iraq crisis to provide the technology 
that we had. What Iron Dome represents is a joint U.S.-Israel 
development of entirely new and advanced technology to address 
this current weapons system.
    Mr. Connolly. Yes, fair point. I was simply saying in terms 
of the goal apparently we did a much, technology, other 
investments and so forth, but we are doing a much better job of 
actually achieving that goal this time than we were able to do 
for whatever reasons, mostly technology maybe, but I mean there 
were real disappointments with the Patriot missile, after the 
fact, at that time as I recall.
    Mr. Satloff. Yes. Thankfully, we are better today at it 
than we were then.
    Mr. Connolly. Yes. Mr. Abrams, do you concur with Dr. 
Satloff's analysis?
    Mr. Abrams. Fully.
    Mr. Connolly. Question, and maybe to you, Ms. Pletka, 
first, what do you think Israel's response should be and will 
be with respect to the non-member or state observer status at 
the United Nations for the Palestinians?
    Ms. Pletka. I am always reluctant to tell other countries 
what to do because I don't like it when other countries try and 
tell us what to do. I understand that the Israelis----
    Mr. Connolly. All right, then what if we reframe the 
question. What do you think their response will be?
    Ms. Pletka. Well, I think the Israelis, as I believe 
Elliott made clear, I think the Israelis have decided that they 
are going to judge more by the actions that the Palestinians 
take in the wake of this decision than by the decision to seek 
the status by itself. It is quite a contrast from the last 
iteration of this where the Israelis fought very hard to ensure 
that the Palestinians wouldn't take that course. I think they 
recognize that victory is in the cards for the Palestinians and 
they want to ensure that the Palestinians receive every 
incentive to behave responsibly in the aftermath. We will see 
if they do.
    Mr. Connolly. I am going to run out of time, so final 
question. I would like both you and Mr. Abrams maybe to just 
clarify what you were saying about President Morsi. I thought, 
maybe I missed it, Elliott. You raised the question about the 
percentage of the vote he got, and I guess I am a little 
puzzled by that. I mean many American Presidents have actually 
been minority Presidents, and I could think of one of your 
favorites in recent history who didn't even get the popular 
vote and, nonetheless, was sworn in as President. And to 
question legitimacy--okay.
    Mr. Abrams. No, I didn't mean to question legitimacy. He 
clearly won. It seemed to be a free election. But it shows us 
that the Muslim Brotherhood candidate just got 51 percent of 
the vote, and almost half of Egyptians didn't want a Muslim 
Brotherhood President. So the resistance to the Brotherhood and 
Islamization of Egypt, if you will, is very widespread in 
Egypt. That was the only point I was making.
    Mr. Connolly. Ah, okay. Thank you. Thank you for your 
clarification.
    Mr. Chabot [presiding]. The gentleman's time is expired.
    Mr. Connolly. I thank the chair.
    Mr. Chabot. The gentleman from Pennsylvania, Mr. Kelly, is 
recognized for 5 minutes.
    Mr. Kelly. All right, I thank you, Mr. Chairman. I think it 
is great that we can meet in these beautiful rooms and dress 
nice and have really nice talk about what we would really like 
to see happen in the world. We realize that at some point there 
need a good dose of reality. I don't think these people are 
wired the same way we are, and we continue to think that if 
somehow we talk nice and play nice and continue to fund bad 
activity that eventually they will come in to think the way we 
think. I don't think history plays out that way. In fact, I 
think it is attributed to Einstein that the definition of 
insanity is to do the same thing over and over again and expect 
a different result.
    Now Ms. Pletka, you make some really good references to us 
giving money to people, aid, taxpayer money or taxpayer-backed 
loans that we are borrowing from other people, 42 cents on the 
dollar, and sending it overseas and thinking that somehow if we 
give these people enough money they are going to play nice. In 
my lifetime at 64, I have never been able to buy off people who 
have evil intents by just giving them money. It kind of 
emboldens them.
    The numbers that you talked about are staggering, and the 
fact that we set conditions and then don't enforce them, why? I 
mean I have only been here 20-some months, and thank God I 
actually lived a normal life. I am trying to understand how 
anybody in the world could sit here and watch what is going on 
and continue to think that somehow this is going to change, 
when I know and you know that the only time news is made in the 
Mideast is when Israel fights back. Then it becomes some kind 
of a horrible military effort.
    So please, what conditions? I mean and at what point do we 
wake up and say, you know what, we are cutting off your 
allowance. You are not going to school, you are not playing by 
the rules, and you know what, doggone it, we are not going to 
fund this. These numbers are staggering.
    Ms. Pletka. The numbers that are involved are staggering. 
Our aid to a variety of countries in the Middle East, of course 
Israel included, is very substantial, and for many years made 
up the majority of the foreign assistance that the U.S. 
taxpayer gave out internationally.
    I sat down and looked over the conditions on aid to Egypt, 
and I was actually very impressed. Anybody who says that our 
Members of Congress don't do anything all day hasn't read these 
bills. They are very thoughtful conditions. They are important 
conditions. The problem is that each one comes with a waiver. 
And the problem with waivers is that invariably they are 
exercised, and it is that that needs to be stopped.
    I believe that we have a strong interest in remaining 
engaged. I don't think we should wash our hands either of Egypt 
or Jordan or the Middle East or the Palestinians. We have a 
stake in their future. We turned around and walked away from 
Afghanistan when we shouldn't have and al-Qaeda rose up in that 
place. I don't think we should walk away, but we need to go to 
work every day. The Iranians come to the table and fight every 
day for their agenda in the region. We just drop in 
occasionally when we feel like it to wag our finger or say 
thank you. That is our problem and that is mainly an executive 
branch problem. And the problem is that their feet need to be 
held to the fire. If I were in your place, I would be taking 
waivers away and making sure that conditions are adhered to.
    Mr. Kelly. Thank you, I appreciate that. I think a total 
commitment is much better than an impassionate involvement from 
time to time. The Palestinian Authority, they are going to ask 
the General Assembly today to have a non-member observer state 
status, okay. And I think this is kind of crazy when you look 
at that entity and say, this is the same as the Holy See in 
Vatican City. Let us give them the same type of legitimacy.
    What could we have done to prevent that from happening, the 
United States now? What statements could we have done? How 
could we have better articulated that that maybe the other 
people in the world would have sat up and take notice? Elliott, 
please.
    Mr. Abrams. Well, we did once back them off on this, and 
that would lead me to believe that maybe if we had pushed 
harder maybe they would have agreed to postpone it again. I 
don't think that is a thing that happens this week. I think 
that there were some American diplomats, I am told, up in New 
York a few days ago trying to get the Palestinians to back off, 
but they weren't going to do that 3 days in advance. I am 
talking about 3 months ago, 6 months ago. It seems to me that 
had we pushed harder and put more of the relationship on the 
line maybe we could have gotten them to back off yet again.
    Mr. Kelly. Well, long-term policies or long-term strategy 
is certainly better than at 5 minutes to midnight running out 
and trying to talk to some folks.
    Mr. Abrams. Yes.
    Mr. Kelly. Okay. I am greatly concerned, and also some 
colleagues, that we sent a letter to the President and the 
Secretary of State about the U.N. Arms Trade Treaty. I am 
greatly worried about that because oftentimes things happen 
when you are not looking, and this would give some legitimacy 
again to some very bad players in the world.
    Do you see anything that we are doing at an administration 
level that is making sense to securing that part of the world 
and establishing some type of permanent peace? I know it is 
kind of an open-ended question. You have 10 seconds to answer 
it.
    Mr. Satloff. Congressman, first, U.S.-Israel security 
cooperation is very important as a pillar of building a peace. 
Secondly, what we are doing quietly in the Persian Gulf, the 
fact that there are now on a regular basis two carriers in the 
Persian Gulf is a very important signal of American commitment. 
It is not enough, and the Iranians can see through this and see 
around it like what they are doing in Gaza. But there are 
elements out there that can be built upon to advance our 
interests more effectively.
    Mr. Kelly. Well, in conversations I have had with----
    Mr. Chabot. The gentleman's time is expired.
    Mr. Kelly. Thank you, all.
    Mr. Chabot. I ask unanimous consent that the gentleman be 
given 1 additional minute. Okay, the gentleman given 1 minute.
    Mr. Kelly. Thank you. The conversations I have had, I have 
had an opportunity to travel that part of the world, and one of 
the questions, underlying questions, of every one of these 
countries we stopped at they said, when is the U.S. going to be 
a leader again? Not leading from behind, but when is the U.S. 
going to actually establish some very strong lines that 
established us as a strong ally and friend, and not one that 
you are not sure. This wordsmithing that takes place in this 
town is incredible. I know for sure that anything I am told is 
not the truth. But there is no strategy. If we do not lead from 
the position of strength there will not be peace in the world. 
And us leading from behind is a false, these are flights of 
fantasy that somehow we are going to somehow change the 
direction of that region of the world. It just isn't going to 
happen. Because this one, I have said this many times, if it 
walks like a duck and quacks like a duck, this is a duck. If we 
continue to think it is some kind of a swan, we are crazy.
    Mr. Chabot. The gentleman's time is expired.
    The gentleman from New York, the ranking member of the 
Subcommittee on the Western Hemisphere, Mr. Engle is recognized 
for 5 minutes.
    Mr. Engel. I thank you, Mr. Chair, and I want to thank our 
distinguished panelists for being here, all of you, and Mr. 
Abrams. I always like it when Elliotts can testify. I think it 
enhances all kinds of dialogues.
    Let me say that my way of thinking is this. I am for a two-
state solution. The way they are going, to ever get peace in 
the Middle East is for both sides to sit down and negotiate 
across the table with no preconditions. I think it is 
preposterous that the Palestinians make every kind of demand on 
Israel as a precondition for even sitting down and talking, 
when the preconditions they want to get out of Israel are 
really final status issues. And to me, if you are really 
serious about peace you sit down and talk.
    And to my way of thinking, the reason why peace has been 
elusive, it is not a lot of different issues that people say, 
it is the fact that 64 years after the establishment of a state 
of Israel as the national homeland for the Jewish people, the 
Palestinians refuse to accept Israel as a Jewish State. And 
being a Jewish State doesn't mean that only Jewish people can 
live in that state. It means that it is the homeland of the 
Jewish people.
    And the Palestinians should read the United Nations 
resolution in 1947 which partitioned Palestine, it clearly 
states, into an Arab State and a Jewish State. And I would 
remind the Palestinians that when that happened Israel accepted 
the partition and declared their state. And the Arabs who could 
have had their state right then and there, instead of taking 
their state immediately attacked Israel and tried to destroy 
it. And that happened again and again. And when they talk about 
settlements there were no settlements between 1948 and 1967, 
and the Palestinians in the Arab world still didn't make peace 
with Israel. So it really makes my blood boil with all these 
things. And obviously what is happening at the U.N. today is 
just a shame because rather than enhancing peace I think it 
really sets it back.
    I want to ask though about Turkey, because I have been very 
much chagrined over Turkey and the destructive role it is 
playing rather than the constructive role it used to play. Last 
week, Israeli and Turkish newspapers reported that talks were 
conducted in Geneva between representatives of Israel and 
Turkey talking about normalizations between the two countries. 
I particularly was galled at Prime Minister Erdogan's calling 
Israel a terrorist state given Turkey's need to respond to the 
PKK, they think nothing about going into Iraq to get at what 
they call ``Kurdish terrorists,'' but they deny Israel the 
right to protect itself from terrorists.
    So I am wondering, what prospects does anyone on the panel 
see for these talks and for resolving any differences?
    Mr. Satloff. Congressman, I had thought that there was a 
reasonable chance in the moment after Israel's January 22nd 
election if, indeed, as polls suggest, the current government 
or some variation thereof gets re-formed. That because of 
Netanyahu's strength and Erdogan's relative weakness, Erdogan 
is weaker today than he was 5 years ago politically, the 
economy in Turkey is hurting compared to 5 years ago, and 
because of the urgency of Syria as an issue that they share, I 
had thought that there is a chance that reconciliation might 
work.
    But I do think, however, that the talks you referred to 
probably are not going to succeed, and that Erdogan's 
statements about Israel as a terrorist state truly poison this 
situation, and then, in fact, Erdogan has taken Turkey out as a 
key player. He sort of marginalized his own country. And this 
is, given what they have done nefariously in recent years, this 
is not such a bad thing but it does marginalize and make it 
less likely that we will see an Israeli-Turkish reconciliation.
    Mr. Engel. Thank you. In getting back to the discussions 
between the Palestinians and the Israelis. Back in 2000, 2001, 
when Arafat as far as I am concerned was offered a lot, 
Palestinian state on 97 percent of the West Bank, land swaps, 
part of Jerusalem, billions of dollars of aid, he said no. And 
it reminds me of Abba Eban's old slogan about how the 
Palestinians never miss an opportunity to miss an opportunity.
    What many people don't know is that in 2008, when Ehud 
Olmert was Prime Minister he offered even more in behind the 
scenes negotiations, I call it ``the sun and the moon and the 
stars,'' and the Palestinians still said no. So I think when 
countries at the U.N. today are pointing fingers at why there 
is no peace, and unfortunately they will be one-sided and point 
fingers at Israel, I think that the history has shown us that 
if we are going to point a finger at one side for not having 
peace it should clearly by the Palestinian side. And I just 
want to know if anybody would like to comment.
    Mr. Chabot. If you could keep your remarks relatively brief 
because the gentleman's time is expired.
    Mr. Abrams. Okay. Yes, I agree with interpretation, and I 
was in the government when Olmert made those offers. They were 
even more generous than the ones that Barak had made, and yet 
there was no Palestinian reply.
    Mr. Engel. Thank you. Thank you, Mr. Chairman.
    Mr. Chabot. Thank you very much.
    The gentleman from Indiana, Mr. Burton, who is the chairman 
of the Subcommittee on Europe and Eurasia, is recognized for 5 
minutes.
    Mr. Burton. Mr. Kelly, you talked about a normal life 
awhile ago, and I want you to know that you are not going to 
lead a normal life for all the time you are here in Congress. 
This is probably the last time I will be speaking from this 
dais. I have been here 30 years. And so I really appreciate all 
my colleagues and I appreciate to this being the last panel 
because I have known Elliott for all of the 30 years, when I 
didn't have grey hair and you had hair.
    Let me start off, Mr. Satloff, by saying, you said we ought 
to do something in Syria. Russia and Iran are supporters of 
Assad. What would you do?
    Mr. Satloff. Congressman, I think there is a lot the United 
States can do to support the military opposition to Bashar 
Assad without getting any American soldiers anywhere near the 
territory of Syria.
    Mr. Burton. Let me just interrupt you. There are al-Qaeda 
operatives there and other radical groups, and one of the 
things that I have been concerned about in my 30 years here, I 
believed when I first came that there ought to be democracy 
around the world. We ought to work for every single country to 
be democratic, and then I started seeing radical groups winning 
elections and making things even worse.
    And the thing that concerns me right now is the entire 
northern tier of Africa is in a mess. Gaddafi was a bad guy, 
but we had Members of Congress talking to him just a year or 2 
ago. He was a bad guy. He was going to go into Benghazi and 
wipe out some radicals down there, and we said, we can't let 
that happen. It would be a humanitarian disaster. So we got rid 
of Gaddafi and now the radicals are running that area and they 
killed our Ambassador and some other people and we can't even 
go in there anymore. So sometimes you get things you really 
don't want.
    In Egypt, the Muslim Brotherhood has said they wanted the 
destruction of Israel. They have said that for years. In my 
mind they are still a terrorist organization. Nevertheless, we 
supported that change there. We said the Arab Spring was not a 
bad thing. So the entire northern tier of Africa has changed. 
It is in a state of flux and we really don't know where it is 
going.
    And in Syria we have got a real mess and it is a civil war, 
and what concerns me is we don't know what is going to happen. 
We don't know who is going to take over and what impact it will 
have on our interests. And one of the things I think I have 
learned over the years is that before you do something you try 
to figure out what is going to happen afterwards. You look down 
the road. This administration did not look down the road in 
Libya. They did not look down the road in Egypt. And now they 
are talking about doing what you are suggesting in Syria and we 
don't know what is going to happen next.
    And so my concern is that we have a foreign policy and a 
Secretary of State and a President that says, okay, if this 
happens what do we have to deal with later? Are we going to 
still give foreign aid? I agree with what Ms. Pletka said that 
foreign aid should be conditional. It should be reviewed 
annually. There should be a Sword of Damocles hanging over 
these people knowing that if they don't at least work with us 
they are going to have that sword fall on them. They are not 
going to get anything else. There has got to some carrot and a 
stick approach, and right now it just seems like there are just 
carrots, and I think it is a mess. I think that is, and I am 
going to say one more thing about Iran.
    Iran is working not only in that northern part of Africa 
and the Middle East, they are working in Azerbaijan trying to 
undermine that government. They are working in the Gulf States. 
I was just over in Bahrain and elsewhere, they are sending 
people over there to try to work with people to keep them 
whipped up to throw out that government, and that government is 
a government that has worked with us for probably 30, 40 years. 
And we have got the 5th Fleet in there, which is extremely 
important for us as far as security in the region.
    So I will end up by just saying that I think that our 
foreign policy needs to be much more farsighted. We need to 
look ahead before we support something, and make sure we are 
not jumping from a flame into a raging fire. And I am afraid 
right now there is going to be a major war in the Middle East 
and I don't think it is going to be 3 or 4 years. I think it is 
going to be quicker than that because of our foreign policy. 
Now if you want to say something in 16 seconds, you are 
welcome.
    Mr. Abrams. Mr. Chairman, I want to say something in 16 or 
12, how much I have appreciated working with Mr. Burton in 
these, it is 30 years. Years when it looked like the Republican 
minority might be permanent. Years when there were some very 
tough foreign policy fights and everyone in the Reagan and Bush 
administrations certainly knew that one of the people that you 
could always count on to fight for the President and for the 
country was Mr. Burton, so thank you.
    Mr. Burton. Thank you. I feel the same way about you, 
buddy.
    Mr. Chabot. The gentleman's time has expired.
    On behalf of the chair and the other members of the 
committee, I would like to thank both Mr. Berman and Mr. Burton 
for their long service to this institution, and it is a better 
place because both of you have served here, and we appreciate 
your service and wish you the best in the future.
    And Mr. Marino from Pennsylvania is recognized for 5 
minutes.
    Mr. Marino. Thank you, Chairman. I apologize for being 
late, so I may ask a question that has already been asked but 
please amuse me if you would. I was a prosecutor for almost 20 
years. I was a district attorney and a United States attorney. 
I have tried many cases myself. Capital murder cases, terrorist 
cases, you name it I tried it. And there was a certain period 
of negotiation that took place between the prosecution and 
defense, but at some point the prosecution had to draw the line 
in the concrete and say this is it. All offers are off the 
table and we are going to trial. I see we are at that point 
right now.
    And Secretary Abrams, if you could answer this question for 
me, and if any other members want to chime in afterwards, 
please do. What is the downside, and we know this 
administration has not done it, I don't foresee President Obama 
doing it, but what is the downside to making it very clear 
concerning Israel, Palestine, Iran, Syria, any of those other 
terrorist countries of simply saying, whatever Israel wants, 
we, the United States, are right there with them, side-by-side, 
backing them, doing what they feel is best to protect the 
people of their country? What is the downside of that? Because 
we keep pandering to these terrorists.
    Mr. Abrams. I think your fundamental point is right, Mr. 
Marino, that we will bring more security for Israel, we will 
bring more security for the U.S. and we will bring the 
possibilities of peace much closer if it is understood that we 
are a closely supportive of Israel. Any form of distance just 
encourages Hamas and other terrorist groups. It encourages Iran 
to think they have got an opportunity here. So distancing 
ourselves from Israel is only going to produce fewer chances 
for peace and it is only going to harm American interests in my 
view.
    Mr. Marino. Ms. Pletka? Am I pronouncing that correctly?
    Ms. Pletka. I agree with both you on what was at the heart 
of what you said, but I think this is really a larger problem. 
This isn't just about the United States and Israel. I think if 
you asked the President, he would say that he has been a 
staunch ally of the state of Israel. Now I don't agree with 
that assertion. Nonetheless, the problem is really one of where 
the U.S. stands in the world. It is not just where we stand on 
the question of Israel. It is where we stand in the Middle 
East. It is where we stand on the question of Iran. Are we 
going to negotiate with Iran and allow them to have a nuclear 
capability? Because I can tell you that that is what they think 
and that is what our allies think. If we are adrift as a nation 
in shaping our foreign policy and unsure of whether we wish to 
lead the world or we wish to just sort of play along with the 
world, then we are going to have these problems in more places 
than just the Middle East.
    Mr. Marino. I agree with you completely, but again reaching 
back to my experiences of prosecutor, it only took me one time 
in a major homicide case to prove to defense and defendants 
more so that the deal is off the table, because the next time 
it rolled around they said, he pulled the trigger before, he 
will do it again.
    Dr. Satloff?
    Mr. Satloff. Congressman, America's traditional role in 
pursuing peace and security around Israel has been, one, to be 
a close ally of Israel, and then secondly, to try to be an 
honest broker of peace. Now too many people interpret ``honest 
broker'' as the opposite of close ally when, in fact, one 
becomes a more effective honest broker the closer one is with 
your close ally. And so what is very important, if you want to 
pursue peace and security together, is to merge the concepts of 
close ally and honest broker instead of, as is so often 
advocated, instead of separating that we can be a balanced 
distance mediator instead of a close partner in helping to 
achieve peace and security.
    Mr. Marino. I understand your position but this is 
rhetorical. How has that been working lately?
    Mr. Satloff. Well----
    Mr. Marino. It hasn't been, and I want to make it clear on 
that. It hasn't been, what I have learned through my career, my 
studies abroad, my emphasis on the Middle East. I have a friend 
from Iran who just left the country before the Shah was 
overthrown, and she has said to me on numerous occasions and 
until today, you will never negotiate with terrorists until you 
go to the table with a bigger club than they have, and use it.
    And in closing, my position is, the way we get the point 
across is to stand very, very closely with our friends and get 
the point across to our enemies. And just for the record, and I 
have said this time and time again, whatever Israel wants to do 
to protect the interest of their people which protects the 
interests of this country, I am there with them side-by-side, 
no holds barred.
    Mr. Chabot. The gentleman's time is expired.
    Mr. Marino. Thank you.
    Mr. Chabot. We are going to go to a quasi-modified second 
round here for the purpose of allowing Mr. Berman to ask a few 
additional questions. We will give him up to 5 minutes. The 
gentleman, the ranking member is recognized.
    Mr. Berman. And I promise not to do it at the next hearing. 
Thank you very much. There was this article in the New York 
Times a day or two ago sort of about the strange things going 
on now. The Sunni-Shia tensions, how it is playing out in the 
context of the Israeli-Palestinian conflict.
    And I guess the question I have is, sort of what that part 
of the conflict, how that affects Israel, most particularly can 
Hamas pull, we talk about all the things Hamas has been sort of 
getting from these visits, but do they have any problem in 
balancing the support from Iran with their support from the 
Egypt-Qatar-Turkey folks? Do they risk something here? They 
apparently didn't risk, they got the Iranians mad but not mad 
enough to stop the supply, by turning against Assad. How long 
can they successfully play that game? That is one question I 
have. And maybe they can succeed in playing both sides of this.
    And the second question, if you had asked me 6 months ago I 
would have said if the Palestinian Authority pursues the U.N. 
strategy we should fundamentally change the nature of our 
relationship with them. I am aware of countries and individuals 
drawing red lines and then, well, did I draw that right, red 
line, and changing it. If keeping the PA at least at this 
moment in time alive and given the problems with the Arab 
support for the PA, do we want to base an aid decision to the 
Palestinian Authority on what happens sometime today, or do we 
want to base it on some of the issues you folks have talked 
about? What is their approach to the criminal ICC? Maybe just 
as, or more importantly, what is their approach on the very 
interesting choice of imitating Hamas or making it clear that a 
negotiation is the way to achieve the goal. And is that a 
better way to decide the aid question?
    Mr. Abrams. Can I just begin by saying, Mr. Chairman, I 
have a plane to catch, and if you will allow me to be excused 
to go to the airport.
    Mr. Berman. Sure.
    Mr. Abrams. Thank you.
    Mr. Satloff. Congressman, on your first question, as long 
as our side, the side of diplomacy, is not even in the game 
then I am sure that Hamas is able to balance support from both 
Sunnis and Shia. Nothing succeeds like success and Hamas looks 
like it is doing very well. And they are able to have posters 
in Gaza thanking Iran, as well as cashing the checks from the 
Emir of Qatar and welcoming other aid from other Sunni states. 
It really comes down, I think, to invigorating the idea that 
there is an alternative.
    And this goes to your second question. I agree with what I 
believe is the thrust of your question which is, however 
reckless the Palestinians are at the U.N. today, this should 
not be the sole criteria, in my view, for determining the 
American relationship with them. There are at least two other 
things that are going on that are very positive, and that is 
security cooperation between the Palestinian Authority and 
Israel which has prevented terrorism between, coming from the 
West Bank against Israel. We don't forget that if we were 
sitting 10 years ago today we would be talking about bombs 
going off in cafes and schools and buses in Israel. And that 
hasn't happened now in years. It is not only because of the PA 
but the PA plays an important role.
    And second, the economy in the Authority is functioning, 
such as it is. We need to try to build on that. We have to try 
to incentivize Mahmoud Abbas to act on his interest and to 
engage in negotiations. But if there is no diplomacy for an 
extended period of time, Hamas will win. Palestinians will see 
them as more successful, even if they offer no solution to the 
conflict with Israel.
    Ms. Pletka. People used to say that there are two sure 
things, death and taxes. I would add there a corollary, there 
are three sure things. Death, taxes and then belief that the 
peace process will solve all the ills of Israel and the Arabs. 
I don't believe it. I don't agree with Rob on this, though I 
have great respect for him. I think that the Palestinians have 
to get their own house in order and that that is very 
important. That doesn't mean that we end our relationship with 
them, but a Palestine that it does not have its house in order 
cannot make peace with Israel, especially cannot make a peace 
that will last that will be built on a solid foundation. That 
is part one. Part two----
    Mr. Berman. Though how do you get your house in order with 
Hamas out there?
    Ms. Pletka. First of all, why did Hamas gain the popularity 
it had? Because of the malfeasance of Fatah.
    Mr. Berman. Absolutely.
    Ms. Pletka [continuing]. A million people. Fine. When that 
happens your job is to show the contrast and to show it 
properly, not to play publicity games like went into the United 
Nations. That is old Palestine behavior and that is what we are 
seeing. No, no, look at me, I can kill more Jews than you can 
so I am better. Now everybody loves me. Nobody cares about 
corruption, failure of civil society, failure of governance.
    We spend a lot of time talking about Fatah and Hamas and 
not a lot of time talking about the Palestinian people who have 
suffered more at the hands of their own government than they 
ever have at the hands of Israel. That should be the mission is 
to straighten their house in order and then hope to build a 
peace process that will be far easier on two stable societies 
rather than on one unstable one.
    May I just take an additional 5 seconds and say something 
about the Sunni-Shia divide that you talked about? I think this 
is one of the most understudied and misunderstood conflicts in 
the region in the fact that we have allowed Iran to take the 
mantle of protector of the Shia, who are truly downtrodden in 
much of the Middle East, is really wrong. The fact that we 
allowed the Government of Bahrain that the complicity of the 
Saudis to trample on the freedoms of the Shia in Bahrain was 
wrong. The same is true in Yemen. The same is true throughout 
the region. And we need to do a lot better in understanding the 
Shia of the Middle East and competing with the Iranians to 
protect their interests, interests of minorities and 
majorities.
    Mr. Berman. Not to mention the Shia of Pakistan.
    Ms. Pletka. Yes, absolutely.
    Mr. Chabot. And the gentleman's time has expired.
    Ms. Pletka. Thank you.
    Mr. Chabot. On behalf of Chairwoman Ros-Lehtinen, I would 
like to thank the panel for their excellent testimony here this 
afternoon. If there is no further business to come before the 
committee, we are adjourned.
    [Whereupon, at 1:04 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


              <F-dash>\<Hoarfrost><acctof><careof>t<star> 
                      stat<box><acctof><box><Rx>t\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<F-dash>\<Copyright><pound><Rx><Rx><pound><script-l><script-l><variable>
                      stat<box><acctof><box><Rx>t\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>

[Note: ``Engagement without Illusions'' by Vin Weber and Gregory B. 
Craig, a Washington Institute Strategic Report submitted for the record 
by Robert Satloff, Ph.D., executive director, The Washington Institute 
for Near East Policy, is not reprinted here but is available in 
committee records.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
